TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                 Fiscal Year 2006
                         Statutory Review of Restrictions
                         on Directly Contacting Taxpayers



                                         August 28, 2006

                              Reference Number: 2006-40-136




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 28, 2006


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       (for) Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2006 Statutory Review of Restrictions
                             on Directly Contacting Taxpayers (Audit # 200640002)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with legal guidelines addressing the direct contact of taxpayers and their
 representatives as set forth in Internal Revenue Code Section (I.R.C. §) 7521(b)(2) and (c)
 (2004). The Treasury Inspector General for Tax Administration was statutorily required to
 conduct this audit.

 Synopsis
 IRS employees are required by the direct contact provisions of I.R.C. § 7521(b)(2) and (c) to:
     •    Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
     •    Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
          representative if the representative is responsible for
          unreasonably delaying the completion of an                Taxpayers are informed of
          examination or collection action.                         direct contact provisions
                                                                    through IRS publications.
 The IRS Internal Revenue Manual provides employees
 guidance to help ensure compliance with the direct contact provisions. In addition, the IRS has
 informed taxpayers of these rights through various IRS publications.
                              Fiscal Year 2006 Statutory Review of
                          Restrictions on Directly Contacting Taxpayers



However, we could not determine whether the IRS complied with I.R.C. § 7521(b)(2) and (c)
requirements when directly contacting taxpayers and their representatives. IRS management
information systems do not separately record or monitor direct contact requirements, and
Congress has not explicitly required the IRS to do so. Furthermore, we do not recommend the
creation of a separate IRS system to track those cases involved with direct contact issues.
Accordingly, we made no recommendations in this report.

Response
The IRS agreed with the information presented in this report. Management’s complete response
to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                2
                                        Fiscal Year 2006 Statutory Review of
                                    Restrictions on Directly Contacting Taxpayers




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          The Internal Revenue Manual Provides Employees With Guidance
          to Help Ensure Compliance With the Direct Contact Provisions .................Page 2
          The Internal Revenue Service Has Informed Taxpayers of These Rights
          Through Various Publications ......................................................................Page 3
          Compliance With Statutory Requirements for Restrictions on Directly
          Contacting Taxpayers Cannot Be Determined .............................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 5
          Appendix II – Major Contributors to This Report ........................................Page 7
          Appendix III – Report Distribution List .......................................................Page 8
          Appendix IV – Management’s Response to the Draft Report ......................Page 9
               Fiscal Year 2006 Statutory Review of
           Restrictions on Directly Contacting Taxpayers




                  Abbreviations

I.R.C. §      Internal Revenue Code Section
IRS           Internal Revenue Service
RRA 98        Internal Revenue Service Restructuring and Reform Act of 1998
TIGTA         Treasury Inspector General for Tax Administration
U.S.C.        United States Code
                                   Fiscal Year 2006 Statutory Review of
                               Restrictions on Directly Contacting Taxpayers




                                            Background

The Omnibus Taxpayer Bill of Rights1 created a number of safeguards to protect taxpayers being
interviewed by an Internal Revenue Service (IRS) employee as part of an examination or
collection action. Specifically, IRS employees are required by the direct contact provisions of
Internal Revenue Code Section (I.R.C. §) 7521(b)(2) and (c) (2004) to:
    •   Stop a taxpayer interview whenever a taxpayer requests to consult with a representative.
    •   Obtain their immediate supervisor’s approval to contact the taxpayer instead of the
        representative if the representative is responsible for unreasonably delaying the
        completion of an examination or collection action.
The provisions were added to the Omnibus Taxpayer Bill of Rights to protect the rights of
taxpayers who are interviewed by an IRS employee as part of an examination or collection
action. A taxpayer can file a civil suit against the IRS if an IRS employee intentionally
disregards these provisions by denying a taxpayer the right to appropriate representation.
On July 22, 1998, the President signed into law the IRS Restructuring and Reform Act of 1998
(RRA 98),2 which required the IRS to revise Your Rights as a Taxpayer (Publication 1) to inform
taxpayers of their rights (1) to be represented at interviews and (2) to suspend an interview
pursuant to I.R.C. § 7521(b)(2). In addition, Congress added I.R.C. § 7803(d)(1)(A)(ii) (2004) to
the RRA 98, which requires the Treasury Inspector
General for Tax Administration (TIGTA) to evaluate
                                                                The TIGTA is required to evaluate
annually the IRS’ compliance with the direct contact            annually the IRS’ compliance with
provisions. The Senate Committee report for this law             the direct contact provisions of
stated that Congress believes taxpayers should be more              I.R.C. § 7521(b)(2) and (c).
fully informed of their rights to representation in dealing
with the IRS and those rights should be respected.
This review was performed in the IRS Headquarters and in the National Taxpayer Advocate
function in Washington, D.C.; the Small Business/Self-Employed Division Headquarters in New
Carrollton, Maryland; and the Wage and Investment Division Headquarters in Atlanta, Georgia,
during the period April through June 2006. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.

1
 Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
2
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).


                                                                                                           Page 1
                                  Fiscal Year 2006 Statutory Review of
                              Restrictions on Directly Contacting Taxpayers




                                    Results of Review

The Internal Revenue Manual Provides Employees With Guidance to
Help Ensure Compliance With the Direct Contact Provisions
Following enactment of the Omnibus Taxpayer Bill of Rights in 1988, the IRS began to establish
written procedures regarding taxpayer interviews for employees to follow and planned to further
enhance those procedures as needed. These initial procedures required employees to meet the
legal guidelines imposed by the direct contact provisions and to document the related actions in
the taxpayer’s case file.
Enactment of the RRA 98 contributed to the further enhancement of the procedures and
guidelines related to the direct contact issues. The TIGTA is required under the RRA 98 to
assess annually the IRS’ compliance with the direct contact provisions. In response to prior
TIGTA reports, the IRS took several corrective actions to further improve the existing
procedures and guidelines for directly contacting taxpayers and their representatives.
In our Fiscal Year 1999 report,3 we recommended the IRS (1) complete its efforts to develop
national guidance to ensure consistent treatment of taxpayers and (2) develop a process to
determine whether employees are complying with the direct contact provisions.
In response to our first recommendation, the IRS updated its Internal Revenue Manual in 1999
and 2000 to include:
    •   Procedures for handling situations when a representative is authorized to represent the
        taxpayer on only 1 tax year, but the examination or collection interview covers more than
        1 year.
    •   Clarifying guidance to determine a reasonable time period for taxpayers to secure
        representation.
    •   Clarifying guidance to determine whether enforcement actions (such as seizure of
        property) should be considered an “interview” for the purpose of I.R.C. § 7521(b)(2) and
        (c).
In response to our second recommendation, the IRS assigned group managers responsibility for
monitoring employees’ compliance with the direct contact provisions. The group managers were



3
 The Internal Revenue Service Needs to Enhance Guidance on and Monitoring of Compliance with Procedures for
Directly Contacting Taxpayers and Their Representatives (Reference Number 1999-10-076, dated September 1999).
                                                                                                     Page 2
                               Fiscal Year 2006 Statutory Review of
                           Restrictions on Directly Contacting Taxpayers



required to address this issue during group meetings, case reviews, on-the-job visits, and
taxpayer/representative inquiries to ensure employees fully comply with the law.

The Internal Revenue Service Has Informed Taxpayers of These
Rights Through Various Publications
The IRS uses Publication 1 as the main document to keep taxpayers informed of their rights and
to explain the examination, collection, appeals, and refund processes. Taxpayers are provided a
copy of Publication 1 prior to a scheduled interview with the IRS. Prior to December 1998,
taxpayer rights during IRS interviews were not specifically mentioned in Publication 1. The
RRA 98 required the IRS to revise Publication 1 to include information concerning taxpayers’
rights (1) to be represented at interviews with the IRS and (2) to suspend an interview pursuant
to I.R.C. § 7521(b)(2). The IRS has also included information on these rights in other
publications. As a result, taxpayers may be better informed of their rights during interviews
through the expanded avenues made available by the IRS. These other publications include:
   •   Your Federal Income Tax (Publication 17).
   •   Tax Guide for Small Business (Publication 334).
   •   Examination of Returns, Appeal Rights, and Claims for Refund (Publication 556).
   •   The Examination Process (Publication 3498).

Compliance With Statutory Requirements for Restrictions on Directly
Contacting Taxpayers Cannot Be Determined
We could not determine whether IRS employees followed proper procedures to stop an interview
if the taxpayer requested to consult with a representative. Neither the IRS nor we could readily
identify cases in which the taxpayer requested a representative or the IRS contacted the taxpayer
directly and bypassed the representative.
Current IRS management information systems do not separately record or monitor cases in
which taxpayers had requested to consult with a representative or in which IRS employees
bypassed taxpayer representatives and contacted the taxpayers directly. There is no legal
requirement for the IRS to record or monitor cases involving these two procedures.
One way to identify possible violations of these taxpayer rights is to determine if taxpayers have
complained that an IRS employee intentionally denied them their right to representation or
bypassed a representative without proper approval. Taxpayer complaints that allege IRS
employees bypassed their representatives and contacted them directly are tracked by the TIGTA
Office of Investigations. The TIGTA Office of Investigations closed seven direct contact
complaint and/or investigation cases between October 2004 and October 2005. In all seven

                                                                                             Page 3
                               Fiscal Year 2006 Statutory Review of
                           Restrictions on Directly Contacting Taxpayers



cases, the facts of the cases indicated the IRS employees did not violate the direct contact
provisions.
This is the eighth year in which we have reported our inability to give an opinion on the IRS’
compliance with the I.R.C. restrictions on direct contact. Although Congress has not explicitly
required IRS management information systems to separately record or monitor direct contact
requirements, over the years the IRS has established and further enhanced the procedures and
guidelines to adequately address the requirements of the law. We do not recommend the creation
of a separate tracking system and are making no recommendations in this report.




                                                                                               Page 4
                                    Fiscal Year 2006 Statutory Review of
                                Restrictions on Directly Contacting Taxpayers



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with legal
guidelines addressing the direct contact of taxpayers and their representatives as set forth in
I.R.C. § 7521(b)(2) and (c) (2004). To accomplish this objective, we:

I.      Obtained confirmation from the Small Business/Self-Employed and Wage and
        Investment Divisions that the IRS neither has, nor plans to implement, a system or
        process to identify or track cases in which taxpayers have requested to consult with a
        representative or in which an IRS employee bypassed a representative.
II.     Interviewed various IRS and TIGTA personnel responsible for the Taxpayer Advocate
        Management Information System,1 the Information Tracking System,2 and the
        Performance and Results Information System 3 to determine if there is a system to track
        taxpayer complaints relating to violations of the direct contact provisions of the law.
        A. Identified seven direct contact cases (three complaints and four
           complaints/investigations) closed by the TIGTA Office of Investigations during the
           period October 13, 2004, through October 19, 2005.
        B. Obtained and reviewed the closed TIGTA Office of Investigations case files to
           determine their validity and what actions were taken by the IRS as a result of the
           complaints and investigations.
III.    Gathered historical information to determine the Congressional intent in passing
        I.R.C. § 7521(b)(2) and (c).
        A. Researched the Congressional Committee reports to determine the Congressional
           intent of adding I.R.C. § 7521(b)(2) and (c) to the Omnibus Taxpayer Bill of Rights,4
           thereby prohibiting the IRS from directly contacting taxpayers in certain situations.



1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service employees.
2
  The Information Tracking System is an application used by the IRS to assign, control, and track information and
correspondence. It replaced the Executive Control Management System.
3
  The Performance and Results Information System is a management information system that provides the TIGTA
with the ability to manage and account for the thousands of complaints received and investigations initiated
annually.
4
  Pub. L. No. 100-647, 102 Stat. 3730 (1988) (codified as amended in scattered sections of 5 U.S.C. and 26 U.S.C.).
                                                                                                            Page 5
                                    Fiscal Year 2006 Statutory Review of
                                Restrictions on Directly Contacting Taxpayers



        B. Researched the Congressional Committee reports to determine the Congressional
           intent of adding I.R.C. § 7803(d)(1)(A)(ii) (2004) to the RRA 98,5 thereby requiring
           the TIGTA to assess annually the IRS’ compliance with I.R.C. § 7521(b)(2) and (c).
IV.     Obtained information on the actions taken by the IRS in response to I.R.C. § 7521(b)(2)
        and (c) to determine the impact on IRS programs.
        A. Reviewed all prior TIGTA audit reports for the Mandatory Direct Contact reviews
           and summarized the audit results, recommendations, and corrective actions taken by
           the IRS.
        B. Reviewed historic Internal Revenue Manual sections to identify any updates made in
           response to I.R.C. § 7521(b)(2) and (c).
        C. Reviewed IRWeb (the IRS Intranet) to identify the impact I.R.C. § 7521(b)(2) and (c)
           have had on any IRS programs.
        D. Reviewed IRS.gov (the IRS Internet web site) and related IRS publications to identify
           how the IRS informs taxpayers of the IRS’ prohibition on directly contacting
           taxpayers in certain situations.




5
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                             Page 6
                            Fiscal Year 2006 Statutory Review of
                        Restrictions on Directly Contacting Taxpayers



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Audit Manager
Jean Kao, Lead Auditor
Gwendolyn Green, Senior Auditor




                                                                                    Page 7
                             Fiscal Year 2006 Statutory Review of
                         Restrictions on Directly Contacting Taxpayers



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
National Taxpayer Advocate TA
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
   Director, Communications and Liaison, National Taxpayer Advocate TA:CCL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                      Page 8
             Fiscal Year 2006 Statutory Review of
         Restrictions on Directly Contacting Taxpayers



                                                  Appendix IV

Management’s Response to the Draft Report




                                                         Page 9
